                                              NATIONAL SCIENCE FOUNDATION
                                                  4201 WILSON BOULEVARD
                                                 ARLINGTON, VIRGINIA 22230




                    OFFICE OF
                INSPECTOR GENERAL


               MEMORANDUM

                     DATE:             September 30, 1996
                     TO:               Case File No. 193020008
.- .
                     THROUGH:
                     -- - -- .
       .. .. -. . .. .
                 -             .   -
                                                                                      igations Section
                     FROM:
               RE:                                    -
                                       Case Resolution Dr.


               Our office received an allegation in Fe ruar 1993 from a former
               employee and co-PI on an NSF grant, Dr                He alleged that
                                                                                  - h
               and PI on an NSF grant, ~r.-                  had fired him in retaliation for Dr.
           '   complaints about grant expenditure and his intent to speak to NSF officials
               ~r.-lso        alleged that Dr.-                 grant funds and had a conflict of interest
               concerning a company of which- he            is the President. We also received various
               allegations of unethical behavior by Dr

               We reviewed account summaries of grant expenditures and other material for Dr.
                                                                                                   d
               NSF grants and found no clear evidence of diversion of grant funds. We found no evi ence
               of personal benefit from any misuse of grant funds. Furthermore, OIG-Oversight reviewed
               the allegation of scientific misconduct and issued no findings.

               Since our initial review (May 4, 1993), we have received no additional evidence to cause us to
               reconsider our initial determination. This case is closed.
